                                                  NATIONAL SCIENCE FOUNDATION
                                                   OFFICE OF INSPECTOR G E N E W
                                                     OFFICE OF INWiSTIGATIONS

                                            CLOSEOUT MEMORANDUM

1
Case Number: 103120079
                                                                                11          Page 1 of 2




         In December 2003, a preliminary investigation into possible research misconduct concerning the
         Principal Investigator1of an SBIR ~ w a r d e was
                                                       e ~ referred to the CivilICriminal Section for
         investigation. The issues identified during the preliminary investigation involved the,company's
         SBIR I1 proposal3 and included numerous letters of support that appeared to be altered and
         submitted numerous times with multiple, unrelated proposals. There were also questions raised
         regarding the proposals' references to several patents that were reported to be the results of the
         company's previous SBIR I ward^ when the patents were actually issued prior to the SBIR I
         award.

         In May 2004, we conducted a site interview to determine if the company had the resources to
         conduct the research and to interview the subject concerning the statements and letters contained
         in the proposal. The subject had retained counsel and he was present during the interview. Prior
         to ending our interview, we issued a subpoenaSto the subject for all financial documents and
         research records related to the award. The company responded to the subpoena by submitting
         several binders that included financial documents relating to the award and copies of research
         logs and other research-related documents. An individual6who has since returned to his native
         country7 and could not be located for an interview had prepared most of the research logs.

         Our investigation determined the subject knowingly submitted proposals to NSF that contained
         falsified information that subsequently led to the company receiving awards including the SBIR
         I1 award referenced above. Agency staff determined these misrepresentations were not material
         to the success of the proposals. Based on this information we concluded that there was
         insufficient evidence to prove criminal action on the part of the subject.




NSF OIG Form 2 ( 11/02)
                                                   NATIONAL SCIENCE FOUNDATION
                                                    OFFICE OF INSPECTOR GENERAL
                                                      OFFICE OF INVESTIGATIONS

                                              CLOSEOUT MEMORANDUM

11   Case Number: 103120079
                                                                                  11          Page 2 of 2



          However, we did conclude that the subject's actions were inconsistent with generally accepted
          practices among the research community and appeared to meet the definition of Research
           is conduct

          In December 2005, we reported our findings to NSF with a recommendation that it find the
          subject's actions constituted research miscond~ct,~  and take appropriate action. We received the
          agency's responselo in May 2006, indicating that while it did not conclude that the subject's
          actions were research misconduct, it advised the subject that it did not approve of this conduct in
          connection with the preparation of the Final Report and subsequent proposal and warned that
          future filings should be more clearly written. The agency also advised the subject that prior to
          changing any letters of support in the future written permission should be obtained from the
          author of the letter to do so.

          In addition to the recommendation to the agency, we also reviewed prior investigations
          conducted by this office that involved letters of support." This review determined that NSF-OIG
          has received similar allegations in the past, some of which were substantiated. This review also
          determined that there is minimal direction fiom the agency concerning the submission of letters
          of support. We forwarded our findings to the agency along with several recommendations to
          minimize these types of issues in the future. The agency indicated it intends to implement some
          of our recommendations when updating agency policies in the future. We will continue to work
          with the agency to finalize these changes.

          Accordingly, this case is closed.
